RIVE
OFFICE OF THE CLERK

SUPREME COURT OF THE UNITED STATES
Supreme Court Case No.

Mack Calvin Martin

20-6716
David Shinn, Director, Arizona Department of Corrections

(Petitioner) •

(Respondent)

IDO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested
by the Court.
Please check the appropriate boxes:
Please enterrny appearance as Counsel of Record for all respondents.
There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

I am a member of the' ,Bar of:the:Supreme (ourt .Of. the United States.
I am not presently a member of the Bar of this Court. Should a response be requested, the response
rjU be filed by a Bar member.
Signatur
Da

January 13, 2021

Crype or print) Name

Nicholas Chapman-Hushek
Mr. flMs. 0 Mrs. 0

Arizona Attorney General's Office
2005 North Central Avenue
Address
Phoenix, Arizona
Zip 85004
City & State
Nicholas.Chapman-Hushek@azag.gov
(602) 542-8572
E
Phone
A COPY OF THIS FORM MUST BE SENT TO PETITIONER'S COUNSEL OR TO PETITIONER
IF P1.4) SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.
CC: Mack Calvin Martin

RECEIVED
JAN

2 5 2021

OFFICE OF THE CLERK
SUPREME COURT U.S.

